SIGAR                                                        Special Inspector General for
                                                              Afghanistan Reconstruction




                                                                   SIGAR 14-13 Inspection Report



         Forward Operating Base Sharana: Poor Planning
         and Construction Resulted in $5.4 Million Spent
         for Inoperable Incinerators and Continued Use of
         Open-Air Burn Pits




                                                                              DECEMBER
                                                                               2013
SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators
December 16, 2013
General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Mark A. Milley
Commander, International Security Assistance Force Joint Command, and
  Deputy Commander, U.S. Forces–Afghanistan

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers,
  U.S. Army Corps of Engineers



This report discusses the results of SIGAR’s inspection of incinerators and supporting facilities
at Forward Operating Base (FOB) Sharana in Paktika province, Afghanistan. The report
recommends that the Commanding General, U.S. Army Corps of Engineers (USACE), (1)
conduct an inquiry into the circumstances of the acceptance of the incinerator facility at FOB
Sharana and the payment of $5.4 million to the contractor and (2) based on the results of this
inquiry, determine if any action should be taken against the contracting officer(s).
In commenting on a draft of this report, USACE concurred with both of SIGAR’s
recommendations, stating that it had conducted the recommended inquiry and found that the
incinerator facility was constructed in accordance with contract technical specifications and
turned over as an operable facility in December 2012. USACE also stated that none of the
USACE contracting officers assigned to provide oversight on this contract failed to
appropriately perform their assigned duties on the contract and that, therefore, it will not take
action against any of these contracting personnel.
Although we appreciate USACE’s concurrence with our recommendations, we question the
accuracy of USACE’s inquiry and the conclusions it reached for several reasons. For example,
the contractor that would have operated the incinerators estimated that it would cost about $1
million to fix deficiencies found in the work performed by the contractor responsible for
constructing the facility. Moreover, the fact remains that USACE paid the contractor in full for
an incinerator facility that was never used to process solid waste, that experienced a 30-month
delay, and that had a number of construction deficiencies. Therefore, we ask that within 15
days USACE provide SIGAR complete supporting documentation for its conclusions that the
incinerator facility was transferred in operable condition and, more importantly, that USACE
contracting personnel appropriately performed their assigned duties on the contract.
This is the third in a series of inspections involving the construction of incinerators and
supporting facilities at U.S. bases throughout Afghanistan. SIGAR conducted this inspection
under the authority of Public Law No. 110-181, as amended; the Inspector General Act of
1978, as amended; and in accordance with the Quality Standards for Inspection and
Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction
The U.S. Army Corps of Engineers (USACE) awarded a $5.6 million contract (W912ER-09-C-0042) on
September 18, 2009, to International Home Finance & Development LLC, a company based in Denver,
Colorado, to construct solid waste management facilities at Forward Operating Base (FOB) Sharana.1 At the
time the contract was awarded, the base was using open-air burn pit operations to dispose of its solid waste.
International Security Assistance Force officials installed incinerator facilities at military bases throughout
Afghanistan, including FOB Sharana, for several reasons. Of particular concern was the possible health hazard
to base personnel from emissions generated by open-air burn pits used to dispose of solid waste material.2
For this inspection, we assessed whether (1) construction was completed in accordance with contract
requirements and applicable construction standards and (2) the incinerators and supporting facilities were
being used as intended and maintained.
We conducted our inspection work in Kabul, Afghanistan, and at FOB Sharana located in Paktika province,
from May through November 2013, in accordance with the Quality Standards for Inspection and Evaluation,
published by the Council of the Inspectors General on Integrity and Efficiency. The engineering assessment was
conducted by a professional engineer in accordance with the National Society of Professional Engineers’ Code
of Ethics for Engineers. Appendix I provides a more detailed discussion of our scope and methodology.


U.S. ARMY CORPS OF ENGINEERS PAID THE
                                                                                  Photo 1 - Two 40-Ton Capacity
CONTRACTOR IN FULL, DESPITE CONSTRUCTION                                          Incinerators at FOB Sharana
DELAYS AND DEFICIENCIES, SUCH AS ELECTRICAL
PROBLEMS

Our site inspection on May 20, 2013, found that the two incinerators
installed at the site were not in operation. As a result, we could not
fully assess the extent to which the facility met technical
specifications. However, we were able to determine that (1) the project
experienced significant construction delays; (2) the facility had
electrical supply problems that could pose safety hazards; and (3) the
incinerators, if made operational, could only be used by manually
loading and unloading waste and would be limited to about 80
percent of the capacity called for under the original contract. Photo 1
shows the two incinerators at FOB Sharana.
        Reasons for Some Project Delays Were Not Documented
         Construction of the facility was initially scheduled for
         completion in August 2010. However, transfer of the facility
         from USACE to FOB Sharana was not completed until                        Source: SIGAR, May 20, 2013.
         December 2012, with the contract closed out on January 15,


1The contractor responsible for construction of the incinerator system was paid $5.4 million, rather than the contracted
amount of $5.6 million, due to modifications to the contract.
2 Some possible health hazards associated with smoke emitted by burning waste include breathing particulate matter such
as lead, mercury, dioxins, and irritant gases, which can negatively affect organs and body systems, such as the adrenal
glands, lungs, liver, and stomach. See Epidemiological Studies of Health Outcomes among Troops Deployed to Burn Pit
Sites, jointly prepared by The Armed Forces Health Surveillance Center, The Naval Health Research Center, and The U.S.
Army Public Health Command (Provisional), May 2010; Afghanistan and Iraq: DOD Should Improve Adherence to Its
Guidance on Open Pit Burning and Solid Waste Management, U.S. Government Accountability Office, GAO-11-63, October
2010; and Long-Term Health Consequences of Exposure to Burn Pits in Iraq and Afghanistan, Institute of Medicine,
Committee on the Long-Term Health Consequences of Exposure to Burn Pits in Iraq and Afghanistan, October 2011.



SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                                                          Page 3
         2013. By that time, there had been 896 days of delays. Based on our review of available
         documentation, we determined that 235 of the 896 days were attributable to security and weather
         delays. USACE officials could not provide documentation to account for the remaining 661 days of
         delays. However, USACE officials told us that contractor performance issues contributed to project
         delays. For example, (1) the contractor was suspended for 62 days for failure to have qualified site
         safety, health, and quality control personnel on site; (2) the contractor was slow in completing and
         submitting safety, quality control, and schedule recovery plans; (3) the project experienced high
         turnover rates of contractor personnel, including project managers; and (4) contractor management
         did not become actively involved in, or visit, the project.

        Electrical Deficiencies Posed Safety Hazards
         The contract called for all work to be conducted under the general direction of the contracting officer
         and subject to U.S. government inspection and testing before acceptance of the facility to ensure
         compliance with the terms of the contract. USACE officials told us they never conducted a test of the
         incinerators to ensure they were operational and met contract requirements. However, Fluor, the base
         contractor that would have operated the incinerator system upon project completion,3 conducted an
         inspection of the incinerators that identified numerous electrical deficiencies that could pose safety
         hazards. Fluor’s inspection noted, among other things, that (1) the wiring did not comply with electrical
         code,4 (2) electrical outlet boxes were not approved for installation in plaster or concrete, (3) electrical
         outlet boxes had unsealed openings, and (4) the incinerator power was not properly bonded.5 Fluor
         officials estimated that it would cost approximately $1 million to repair these deficiencies, and FOB
         Sharana officials told us they decided not to operate the incinerators because of the high cost to
         repair the electrical deficiencies.6

        Limitations to Incinerator Operability
         Our inspection also found that even if the electrical deficiencies were corrected, the incinerators could
         not be fully used. Although the contract required installing an incinerator facility with the capacity to
         process 24 tons of solid waste per day, two 40-ton capacity incinerators were actually installed at the
         facility.7 Based on our observations and discussions with base personnel, we determined that the
         physical layout of the incinerators, as constructed, would allow them to process only 20 tons of solid




3 Under the U.S. Army Logistics Civil Augmentation Program, Fluor provides the Department of Defense and coalition forces

with multi-functional logistical services during contingency operations, such as the operation of incinerators at FOB
Sharana.
4 Fluor found that wiring for the incinerator system was not compliant with National Electrical Code 2008, which is a set of
standards developed for the purpose of safeguarding persons and properties from hazards arising from the use of
electricity and covers areas such as installation of electrical conductors, and communications equipment.
5 Bonding is a method by which all electrically conductive materials and metallic surfaces of equipment and structures, not
normally intended to be energized, are effectively interconnected together via a low impedance conductive means and path
in order to avoid any appreciable potential difference between separate points. A safe and effective bonded grounding
system is critical to maintaining the safety, reliability, and efficiency of operations.
6 We identified a similar issue during our inspection of the incinerator facility at FOB Salerno in the adjacent Khowst
province. In that case, USACE transferred an inoperable facility, constructed at a cost of about $5 million, to U.S. forces at
the base. However, FOB Salerno officials decided not to use the facility due to high cost estimates submitted by Fluor
Corporation, the base contractor at that site. For more information, see SIGAR Inspection 13-8, Forward Operating Base
Salerno: Inadequate Planning Resulted in $5 Million Spent for Unused Incinerators and the Continued Use of Potentially
Hazardous Open-Air Burn Pit Operations, April 2013.
7 We requested project documentation that would explain why two 40-ton capacity incinerators were installed instead of a
24-ton capacity system. However, USACE officials told us that the project had been closed and documentation had been
transferred back to the United States.



SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                                                              Page 4
         waste daily, which is about 80 percent of the capacity called for under the contract. As constructed,
         the incinerators also share a common loading area, which is too narrow to allow equipment, such as
         trash haulers and forklifts, to load the units with solid waste. As a result, solid waste would need to be
         manually loaded into the incinerators. In addition, the ramps to access the ash ejected from the
         incinerators are inaccessible to the equipment needed to load and transport the ash to a nearby pit.
         This design flaw means that workers would need to load wheel barrels and manually transport the
         ash. Photo 2 shows the narrow loading area for the two 40-ton incinerators.

Despite the problems detailed above, according to the
                                                                    Photo 2 - Loading Area for Incinerators
contract modification, USACE paid the contractor
(International Home Finance & Development LLC) in full
in September 2012 and, in December 2012,
subsequently transferred the incinerators and supporting
facilities to FOB Sharana. In October 2013, FOB Sharana
was closed and the entire base, including the
incinerators, was transferred to the Afghan Ministry of
Defense. According to officials with U.S. Forces-
Afghanistan, the incinerators may “have already been
deconstructed by the Afghans, presumably for scrap.”
According to the contract, USACE could have held
International Home Finance & Development LLC
accountable for fixing the deficiencies at FOB Sharana at
its own expense. For example, the contract incorporates
FAR clause 52.249-10, which allows the government to          Source: SIGAR, May 20, 2013.
terminate a contract for default and hold the contractor
liable for “any damage to the Government resulting from the Contractor’s refusal or failure to complete the
work within the specified time.” The same clause states that contractor liability “includes any increased costs
incurred by the Government in completing the work.” The contract also incorporates FAR clause 52.246-21,
under which the contractor warranted that the work performed was free of any defect in equipment, material,
design, or workmanship and that it would remedy, at its own expense, any defects in construction. This
warranty could have been enforced even after final acceptance of work. However, USACE has not presented
SIGAR with evidence indicating that it ever sought to recover any funds under this provision.


FOB SHARANA USED OPEN-AIR BURN PITS IN VIOLATION OF U.S. CENTRAL
COMMAND REGULATION ISSUED IN 2011

Department of Defense Instruction 4715.19 and U.S. Central Command (CENTCOM) Regulation 200-2 govern
the use of this solid waste disposal method at U.S. bases during contingency operations. The instruction and
regulation acknowledge that open-air burn pit operations are often necessary during contingency operations,
especially when bases are first established. However, CENTCOM Regulation 200-2 states that when a base
exceeds 100 U.S. personnel for 90 days, it must develop a plan for installing waste disposal technologies, such
as incinerators, so that open-air burn pit operations can cease.8 According to CENTCOM officials, FOB Sharana,
as well as other bases in Afghanistan, were not in compliance with the regulation regarding the use of open-air



8 CENTCOM regulation 200-2 states that if incinerators are used, they shall be ordered and on-site no later than 180 days

after the 90 day threshold has been met. These incinerators shall be installed and operational no later than 180 days after
they arrive on site. Regardless of technologies used, burn pits shall be closed within 360 days once a base exceeds 100
U.S. personnel for 90 days.



SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                                                          Page 5
burn pits. Since the regulation’s establishment in 2011, FOB Sharana had been using open-air burn pits in
violation of the CENTCOM regulation. Photo 3 shows the open air burn pits and emissions at FOB Sharana.


                                                                       Photo 3 - Open-Air Burn Pit Emissions
CONCLUSION

Nearly 3 years after the initial scheduled completion date for the
incinerator facility at FOB Sharana, the incinerators have never
been used. In spite of known construction and safety deficiencies
and poor contractor performance leading to construction delays,
USACE accepted possession of the incinerators and paid the
contractor $5.4 million without having tested the incinerators to
determine whether they were operational. In addition, even if the
incinerators had been made operational, the poor physical lay-
out of the facility, as constructed, would have limited the facility
to only 80 percent of the processing capacity called for under the
                                                                       Source: SIGAR, May 20, 2013.
contract and would have required extensive manual labor to load
waste and remove ash residue.
SIGAR has previously raised concerns regarding instances in which USACE failed to hold its contractors
accountable for not accomplishing work they were paid to perform. SIGAR continues to believe that USACE
must take immediate action to hold contractors accountable when they fail to deliver on their contractual
commitments.
If the incinerator facility had been put into operation in August 2010, as planned, FOB Sharana would have
been able to close its open-air burn pit. However, because of the delays and eventual acceptance of an
unusable incinerator facility, base personnel faced continued exposure to potentially hazardous emissions, and
$5.4 million of U.S. taxpayer dollars could have been put to better use.


RECOMMENDATIONS
We recommend that the Commanding General, USACE:

    (1) Conduct an inquiry into the circumstances of the acceptance of the incinerator facility at FOB Sharana
        and the payment of $5.4 million to the contractor.
    (2) Based on the results of this inquiry, determine if any action should be taken against the contracting
        officer(s).


AGENCY COMMENTS

USACE provided written comments on a draft of this report, which are reproduced in full in appendix II.
In its comments, USACE states that it concurred with both recommendations, fully responded to them, and
determined that USACE action on the report is complete. USACE also states that it has reviewed records
related to the contract and has concluded that no contracting officers assigned to provide oversight on this
contract failed to appropriately perform their assigned duties and, as a result, that no action will be taken
against them.
While we commend USACE for its efforts to promptly conduct an inquiry, we question the thoroughness of
USACE’s assessment and the conclusions it reached. For instance, USACE states that the facility was turned
over in an operable condition to its U.S. military customer in December 2012 and that the deficiencies
identified by Fluor, the contractor that would operate the facility, were merely minor deficiencies that could be

SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                                                  Page 6
addressed under a warranty process. However, as we note in our report, Fluor estimated it would cost about
$1 million—almost 19 percent of the total project cost—to fix the electrical deficiencies it identified. USACE also
does not question our finding that these deficiencies posed a safety hazard, but, instead, notes that the
problems were never fixed because the incinerator facility was not intended to be used and was scheduled to
be deconstructed upon closure of FOB Sharana. USACE also states in its comments that it found no flaws in
the incinerator facility site layout that would prevent full operation of the facility. However, as we discuss in this
report, based on our engineer’s inspection and our discussions with base personnel, we found that the loading
area was too narrow to allow trash haulers and forklifts to load the solid waste into the incinerators. This
design flaw meant that workers would have had to manually load the incinerators, which would have further
reduced their efficiency.
USACE’s comments also seem to confirm a lack of rigor on the part of contracting personnel to do their job. For
example, as discussed in our report, the contract called for all work to be conducted under the general
direction of the contracting officer and subject to U.S. government inspection and testing before acceptance of
the facility. However, USACE’s comments confirm that it did not conduct testing of the facility, but rather relied
on the construction contractor to test the facility, with a USACE Area Engineer present. USACE’s comments also
underscore the significant problems we identified with the contractor’s performance. For example, USACE
acknowledges “contractor failure to provide an acceptable critical lift plan, suspension of work notices for
safety violations, contractor failure to have correct safety personnel on site at all times, slow design effort by
the contractor, and slow work performance by the contractor.”
We remain troubled that USACE paid the contractor in full for a facility that had $1 million in construction
deficiencies, experienced significant delays, and was never used. Therefore, we question the accuracy of
USACE’s conclusions that the facility was properly transferred and that the USACE contracting personnel
performed their assigned duties on the contract, and we request that USACE provide to SIGAR within 15 days
all supporting documentation for these conclusions.




SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                                                     Page 7
APPENDIX I - SCOPE AND METHODOLOGY

This report provides SIGAR’s inspection results of the Forward Operating Base (FOB) Sharana incinerators and
supporting facilities. We conducted our inspection at FOB Sharana on May 20, 2013. However, the inspection
was limited because the incinerators and supporting facilities were not operational at the time of our visit. In
addition, USACE was not able to provide complete construction project files for our review. FOB Sharana is the
third in a series of inspections that examine incinerator construction projects that have taken place at U.S.
bases throughout Afghanistan.
To determine whether (1) construction was completed in accordance with contract requirements and
applicable construction standards, and (2) the incinerators and supporting facilities were being used as
intended, we
       reviewed contract documents, design submittals, and geotechnical reports to understand project
        requirements and contract administration;
       interviewed cognizant officials regarding facility operation and maintenance; and
       conducted a physical inspection, reviewed quality assurance and quality control reports, and
        photographed the incinerators and supporting facilities to determine the current status and quality of
        construction.
SIGAR conducted its fieldwork in Kabul and at FOB Sharana’s incinerators and supporting facilities from May
through November 2013, in accordance with Quality Standards for Inspection and Evaluation published by the
Council of the Inspectors General on Integrity and Efficiency. These standards were established to guide
inspection work performed by all of the Offices of Inspectors General. The engineering assessment was
conducted by a professional engineer in accordance with the National Society of Professional Engineers’ Code
of Ethics for Engineers. We did not rely on computer-processed data in conducting this inspection. However, we
did consider the impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. SIGAR conducted this inspection under the authority of Public Law No. 110-181, as
amended; and the Inspector General Act of 1978, as amended.




SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                                                 Page 8
APPENDIX II - COMMENTS FROM U.S. ARMY CORPS OF ENGINEERS




                                               DEPARTMENT OF THE ARMY
                                            UNITED STATES ARMY CORPS OF ENGINEERS
                                                   TRANSATLANTIC DIVISION
                                                     255 I'ORT COLLIER ROAD
                                                  WINCI IESTER. VIRGINIA 22603




                                                                                            0 6 DEC 2013
             Ms. Elizabeth A. Field
             Assistant Inspector General for Audits and Inspections
             Special Inspector General for Afghanistan Reconstruction (SIGAR)
             1550 Crystal Drive, Suite 900
             Arlington, VA 22202

             Dear Ms. Field:

                Enclosed is USACE Transatlantic Division response to SJGAR Inspection Report: Forward
             Operating Base Sharana: Poor Planning and Construction Resulted in $5.6 Million Spent for
             Inoperable Incinerators and Continued Use of Open-Air Burn Pits.

                USACE concurs with SJGAR 's recommendations to I) conduct an inquiry into the
             circwnstances of the acceptance of the incinerator facility at FOB Sharana and payment to the
             contractor and 2) determine if action should be taken against the contracting officer(s). USACE
             has conducted an inquiry and found that our records pertaining to this $5.4M Firm-Fixed-Price
             contract show the incinerator facility at FOB Sharana was constructed in accordance with
             contract technical specifications, proper testing and training occurred in or about September
             201 2, and an operable facility was turned over to our I J.S. Military customer in December 20 12.

                During the performance of this contract, there were several procuring contractor officers,
             administrative contracting officers and contracting officers' representatives assigned with
             oversight for this construction contract. Review of USACE records by aTAD Senior
             Procurement Analyst concluded that none of the USACE contracting personnel assigned to
             provide oversight on thi s contract failed to appropriately perform their assigned duties on the
             contract. Therefore, no action will be taken against any of the contracting personnel assigned to
             the contract.

               Additional details are provided in the enclosure. My point of contact for this response is Mr.
             Mike Hatchett, Internal Review Auditor. He may be reached by e-mail at




                                                                  ~~v~~
                                                                      · ~~·~~~o•.________________
                                                                  Vincent V. Quarles
                                                                  Colonel, U.S . Army
                                                                  Deputy Commander

             Enclosures




SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                                                        Page 9
             USACE Comments to SIGAR Draft Inspection Report 14-X, Fonvard Operating Hase
             Sharana: Poor Planning and Construction Resulted in $5.6 Million Spent for Inoperable
             Incinerators and Continued Use of Open-Air Burn Pits

             USACE comments are provided as shown.

             RECOMMENDATIONS

             We recommend that the Commanding General, USACE:
                                                                                                                  See
             ( I ) Conduct an inquiry into the c ircumstances of the acceptance of the incinerator faci lity at
             FOB Sharana and the payment of $5.6 million to the contractor.
                                                                                                                  SIGAR
                                                                                                                  Comment
             USACE Response: Concu r. USACE records pertaining to this $5.4M Finn-Fixed-Price contrac             1
             show the incinerator facility at FOB Sharana was constructed in accordance with contract         L------'
             technical specifications, proper testing and training occurred in or about September 2012, and the
             facility was turned over in an operable condition to our U.S. Military customer in December
             2012.

             USACE records also show that the USACE Area Engineer was present and witnessed the
             incinerator operational test conducted by the contractor in or about September 2012. For the
             testing to occur, the FOB Sharana incinerator site was necessarily tied into the main FOB
             Sharana 13.8 KV electrical voltage power distribution grid. Testing required a fully operational
                                                                            111
             system with permanent power connected. Additionally, the 4 Brigade, I st Infantry Division
             Engineer, advised us that there was power to the facility. Following the operational test, 12
             hours of class room training, and 29 hours of equipment on-site "hands on" training was
             provided by the USACE construction contractor to the prospective incinerator operator' s (the
             LOGCAP Contractor, Fluor Inc.) employees on the incinerator systems. A pay request from
             Fluor for costs associated with this training was processed at FOB Sharana by the Division
             Engineer. Hands on equipment training would require the facility to be operational and be able
             to start and run the incinerator, waste conveyer belts, water pumps, fuel pumps and storage water
             tank supply systems.

             USACE turned over the facility to its customer in December 20 I 2. Fom1al turnover
             documentation prepared by USACE (Department ofDefc:nse Form 1354, "Transfer and
             Acceptance of DoD Real Property") indicated that the USACE .final inspection identified no
             deficiencies that would prevent turnover of the facility to the customer.

             Under the LOGCAP program, the LOGCAP contractor was to be responsible for operation and
                                                                                                                  See
             maintenance of the facility. However, USACE was required to obtain its assessment of
             outstanding deficiencies on the project before turnover could occur and O&M could commence.          SIGAR
             Accordingly, the LOGCAP contractor conducted its own review of the facility and prepared a           Comment
                                                                                                                  2
                  0      •                •                                          •




             USACE viewed the deficiency list provided by the LOGCAP contractor to be comprised of
             minor deficiencies or "punchlist items." Per Engineer Regulation 415-345-38, facilities
             '·completed with minor deficiencies which will not interfere with the designed use of the




SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                                                         Page 10
                                                             See
                                                             SIGAR
                                                             Comment
                                                             3




SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators       Page 11
             Electrical Deficiencies Posed Safety Hazards:

             SIGAR's draft report indicates that the LOGCAP contractor's inspection of the incinerators
             identified "numerous electrical deficiencies that could pose safety hazards." At the time of
             project turnover, USACE considered the LOGCAP contractor's list of deficiencies to be minor
             defici encies or "punch list" items. However, prior to turnover, USACE began coordination witr-------,
             Task Force Power to determine whether the facility as constructed contained any electrical codt See
             violations, and efforts to resolve any such concerns were underway. If no code violation was
                                                                                                                SIGAR
             verified, the facility could have been operated as constructed, and if any code violation was
             verified, it could be repaired by the construction contractor as part of the warranty process.     Comment
             However, the installation indicated its plans were to deconstruct the incinerator as a part of the 2
             closure of FOB Sharana, and that it did not intend to operate the facility, and therefore did not
             require USACE to pursue verification or correction of any of the LOGCAP-identified
             deficiencies. USACE continuously strives to implement lessons learned from its work in the
             extremely challenging Afghan environment. Ongoing USACE quality management efforts
             include focused oversight reviews of its Afghanistan quality assurance programs at 90-days
             intervals. These focused reviews identify and correct program weaknesses and provide
             additional training to field personnel to continuously improve ongoing and future quality
             assurance efforts.

             Limitations to Incinerator Operability:
                                                                                                              See
             In its review of this draft report, USACE examined its July 2011 design review comments on the
             contractor's 100% design. These comments identified no flaws in the site layout that would     SIGAR
             prevent full operation and use of the facility as intended.                                    Comment
                                                                                                              4
             We believe the foregoing discussion fully responds to recommendations in this draft report, and ....__ _ _ ___,
             therefore completes USACE action on the report




SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                                                        Page 12
                                   SIGAR Responses to USACE Comments
    1. Although the contract amount was for $5.6 million, the construction contractor was paid $5.4 million,
       due to modifications to the contract. Therefore, we have revised the recommendation to reflect the
       amount paid to the contractor.

    2. It is still unclear why USACE determined that the deficiencies identified by the contractor required to
       operate the facility were “minor deficiencies.” As we note in our report, these electrical deficiencies,
       which the contractor estimated would cost $1 million to fix, also posed safety hazards.

    3. None of the documentation SIGAR received during the course of this inspection would support a figure
       of 712 days, as cited in USACE’s comments.

    4. While USACE’s July 2011 design review comments may not have identified any flaws in the site layout,
       that does not necessarily mean that the design had no flaws. A more robust review could help
       determine why design flaws, such as the flaws found during our inspection, were not discovered
       during the July 2011 design review.




SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                                                Page 13
APPENDIX III - ACKNOWLEDGMENTS

Scott Harmon, Senior Inspections Manager
Brian Flynn, Senior Inspections Manager
Robert Rivas, Senior Auditor
John Dettinger, Senior Auditor
William Dillingham, Civil Engineer




SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators   Page 14
                                                        .




                                    This inspection report was conducted
                                     under project code SIGAR-I-007D




SIGAR 14-13-IP/Forward Operating Base Sharana Incinerators                 Page 15
           SIGAR’s Mission     The mission of the Special Inspector General for Afghanistan
                               Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
      Abuse in Afghanistan     fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
                               hotline:
   Reconstruction Programs
                                           Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



              Public Affairs   Public Affairs Officer
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
